<html>
<title> - DOES THE PRESIDENT'S FY 2016 BUDGET</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                  DOES THE PRESIDENT'S FY 2016 BUDGET
                   REQUEST ADDRESS THE CRISES IN THE
                     MIDDLE EAST AND NORTH AFRICA?

=======================================================================



                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                            
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                      
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 18, 2015

                               __________

                           Serial No. 114-18

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                       
                       
                                   ______
 
                      U.S. GOVERNMENT PUBLISHING OFFICE 

93-821 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                     

                                 ______
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
TOM EMMER, Minnesota

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
DARRELL E. ISSA, California          BRIAN HIGGINS, New York
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
RON DeSANTIS, Florida                ALAN GRAYSON, Florida
MARK MEADOWS, North Carolina         GRACE MENG, New York
TED S. YOHO, Florida                 LOIS FRANKEL, Florida
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York

                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Anne W. Patterson, Assistant Secretary, Bureau of 
  Near Eastern Affairs, U.S. Department of State.................     7
The Honorable Paige Alexander, Assistant Administrator, Bureau 
  for the Middle East, U.S. Agency for International Development.    19

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Anne W. Patterson: Prepared statement..............    10
The Honorable Paige Alexander: Prepared statement................    22

                                APPENDIX

Hearing notice...................................................    44
Hearing minutes..................................................    45
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    46
Written responses from the Honorable Anne W. Patterson to 
  questions submitted for the record by:
  The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
    from the State of Florida, and chairman, Subcommittee on the 
    Middle East and North Africa.................................    49
  The Honorable Gerald E. Connolly...............................    68

 
                  DOES THE PRESIDENT'S FY 2016 BUDGET

                   REQUEST ADDRESS THE CRISES IN THE

                    MIDDLE EAST AND NORTH AFRICA?

                              ----------                              


                       WEDNESDAY, MARCH 18, 2015

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 2 o'clock p.m., 
in room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order. 
After recognizing myself and Ranking Member Deutch for 5 
minutes each for our opening statements, I will then recognize 
other members seeking recognition for 1 minute.
    We will then hear from our witnesses and without objection 
the witnesses' prepared statements will be made a part of the 
record and members may have 5 days to insert statements and 
questions for the record subject to the length limitation in 
the rules.
    And before we begin today, I wanted to take a moment to 
express our condolences to the people of Tunisia, Poland, 
Italy, Germany and Spain for today's senseless and cowardly 
terror attack in Tunis that has left at least 19 people dead.
    We all have great hopes for Tunisia as it leads the way on 
its path toward democracy against all odds and this attack 
reminds us that we must continue to support it as it strives to 
make progress.
    The Chair now recognizes herself for 5 minutes. First, let 
me again welcome you both for being here and thank you for your 
service.
    Each year as part of our oversight obligations we hold this 
hearing to examine the President's budget request for the State 
Department's Near Eastern Affairs Bureau and USAID's Bureau for 
the Middle East.
    We are all aware of just how difficult the Middle East and 
North Africa is with all the instability, the sectarian 
tensions, the violence and the terror. So we know it isn't an 
easy task to address all of these crises and protect our own 
national security interest.
    What I hope to hear today from our two distinguished guests 
is the administration's plan to address the most pressing 
issues in the region and how the budget request is commensurate 
with what we are aiming to achieve.
    In this year's budget, the administration is requesting 
$7.14 billion in overall non-humanitarian bilateral aid for the 
Middle East and North Africa countries, an 8.7 percent increase 
over last year's request.
    It is also requesting an additional $873.4 million in 
bilateral aid for these countries as part of its overseas 
contingency operations--OCO fund--a 5.7 increase since 2014.
    On top of that, there is a request for an additional $1.64 
billion for humanitarian aid for the crisis in Iraq and Syria. 
I am fully aware that this region poses probably the most 
difficulty for us to address.
    But in a time when we don't seem to have a clear and 
decisive plan to tackle these crises, these increases must be 
closely scrutinized by us and the administration must justify 
them.
    This is a significant sum of U.S. taxpayer dollars and we 
can't just sign off on such increases without identifying our 
policy goals and objectives and this administration has been 
plagued by indecision and half measures. And time and time 
again, we hear that the administration was surprised or caught 
unaware by certain events.
    We heard the President say the rise of ISIL was a surprise. 
Then the administration was surprised when ISIL easily captured 
Mosul.
    More recently, even though President Obama hailed our 
counterterrorism efforts in Yemen as a model of success in 
September, the administration acknowledged that it was 
surprised by the collapse of the U.S.-backed government in 
Yemen earlier this year.
    Yet all of these events were foreseeable. In Syria, the 
President still has not defined a clear and comprehensive plan 
for dealing with ISIL, al-Nusra and Assad nor has it been able 
to put forth a clear and distinct strategy for addressing the 
humanitarian crisis that has resulted.
    Instead of seeking the removal of Assad, now Secretary 
Kerry has lowered the threshold and is seeking to negotiate 
with Assad, a man responsible for over 220,000 deaths and who 
used chemical weapons against his own population.
    But this is part of the administration's willingness to 
negotiate with the world's worst regimes at the expense of our 
allies and partners. In the meantime, Iran is essentially in 
control of four capitals in the region--Damascus, Beirut, 
Sana'a and Baghdad.
    Yet, we carry on these misguided P5+1 nuclear talks while 
continuing to alienate our traditional partners and allies in 
the region, which is a recipe for disaster.
    While in Israel and the Palestinian territories the 
administration failed to prevent Abu Mazen from agreeing to a 
unity government with Hamas and failed to prevent Abu Mazen 
from going to the U.N. Security Council with a resolution that 
would establish a Palestinian state outside of the 
Palestinians' obligation to come to a negotiated settlement 
with Israel.
    And though that initiative may have failed, at least for 
now, we were unable to prevent Abu Mazen from ceding to the 
Rome Statute and joining the International Criminal Court, the 
ICC, which has since launched a preliminary investigation 
against Israel.
    In each of the President's requests for economic support 
funds, ESF, is $150 million, $50 million less than Fiscal Year 
2014, and we were told that this decrease was a result of a 
policy decision but we were given no specifics.
    This is somewhat puzzling since a GAO report that I 
requested with Mr. Connolly recently made public shows that we 
still have nearly $\1/2\ billion in previously unobligated 
funds for Egypt. So why are we requesting an additional $150 
million and what are we doing with the $\1/2\ billion?
    There are significant funds from the OCO account that are 
intended to go to Iraq including $250 million in FMF for the 
Iraqi security forces. But what about the Kurds who bear the 
brunt of much of the fighting against ISIL?
    The administration has recognized the continued progress 
that Tunisia has made on its path toward democracy but the 
tragic and deadly attack and hostage situation in the Bardo 
Museum in Tunis today serves as a reminder that there is still 
much work to be done on the democracy and security front.
    There are plenty of good programs and good work that this 
budget request supports and I am pleased to see that it commits 
continued support to our ally, Morocco, and recognizes the 
increased assistance to Jordan as part of the new memorandum of 
understanding as the kingdom continues to be on the front lines 
of the humanitarian crises and fight against ISIL.
    So I do hope that we will hear from our witnesses today on 
how the administration plans to address these challenges head 
on and how we can all work together to make the region more 
secure, more stable while furthering our interest as well.
    I will now yield to my friend, the ranking member, Mr. 
Deutch of Florida.
    Mr. Deutch. Thank you, Chairman Ros-Lehtinen.
    I look forward to these budget hearings each year as it 
gives members a chance to take a broad look at the region, 
assessing our priorities and gaps.
    Before we start, though, I would like to echo the 
chairman's comments on the attack today in Tunisia. Our 
thoughts are, clearly, with the victims and their loved ones 
and I am afraid this is a stark reminder of exactly why we need 
to continue to support and keep Tunisia stable.
    Secretary Patterson, we welcome you back to this committee. 
Assistant Administrator Alexander, it is a pleasure to have you 
join us for the first time and I would like to first 
acknowledge the truly remarkable work that both the Department 
of State and USAID provide.
    I am particularly--I particularly want to acknowledge the 
aid workers and the members of our Foreign Service who are out 
in the field day after day, standing up and representing this 
great country.
    They deserve our recognition and they deserve our thanks, 
and we hope that you will pass that along to them.
    The President's Fiscal Year 2016 budget bilateral request 
for this region amounts to roughly 13 percent of the 
international affairs budget.
    The region is facing no shortage of complex crises, many of 
which have grown exponentially over just the past several 
years. Regional instability is not just a security threat to 
this country and our allies.
    It also presents humanitarian challenges that could last 
well past the end of the military conflicts. In the aftermath 
of the Arab Spring, we face an entirely new landscape.
    Orders have in some cases become nearly obsolete and one of 
the reasons that today's news is so disconcerting is that there 
have been promising developments in countries like Tunisia 
where a relatively stable government has emerged.
    And if we are to prevent any further destabilization in 
Tunisia and help set the country back on the path to economic 
prosperity, the United States has to continue to provide 
support both politically and economically.
    I am pleased to see this year's budget request contains 
$134 million for Tunisia and I look forward to hearing how 
these funds will continue to support the country's fragile 
democracy, particularly with the closing of USAID's Office in 
Transition Initiatives.
    And while we continue to foster great regional security 
cooperation in North Africa with our larger partners like 
Morocco, we have been set back significantly by the chaos in 
Libya.
    What seemed like a chance to rebuild a democratic Libya in 
the aftermath of Gaddafi has unfortunately devolved into a 
perilous security situation and virtually ineffective if not in 
some cases a nonexistent government institution.
    The United States has a clear interest in seeing stability 
return to Libya but we cannot be alone in this effort. Regional 
actors must recognize that a terrorist safe haven in Libya will 
significantly complicate the international effort to counter 
violent extremism and prevent the growth of groups like ISIS.
    The horrific beheadings of Egyptian Christians in Libya by 
those claiming allegiance to ISIS should be an extraordinary 
wake-up call to the international community that Libya needs 
greater focus and attention, particularly on the United 
Nations' efforts to reconcile the country's political system.
    Egypt, the country perhaps currently most affected by 
Libya's instability, given its shared very long and porous 
border, has posed another great challenge to the United States.
    Egypt serves as an incredibly important security partner 
and has faced a growing threat of terrorism in the Sinai that 
must be confronted.
    Egypt has cooperated with Israel on securing its shared 
borders and has been at the forefront of our efforts to combat 
Hamas' building of terror tunnels and its vast smuggling 
network.
    I want to see Egypt succeed. I recognize it is a long road 
to democracy, and while I am still concerned about the 
perceived severity in which the state has cracked down on civil 
society, I hope that we can address some of the ways in which 
we are balancing our vital relationship with Egypt and our 
concerns about human rights and how the $150 million in 
economic support funds can be used to support civil society and 
good governance.
    I also support critical funding for security cooperation 
between Israel and the Palestinian Authority. This cooperation 
provides an enormous security benefit to Palestinians and to 
Israelis, and I hope that those who use the threat of an end to 
this cooperation recognize the devastating effect that it could 
have.
    I also believe there comes a time when we have to assess 
whether there is a credible partner to work with and this means 
that President Abbas must stop his attempts to bypass negations 
via unilateral means.
    Moreover, we must continue to remind the world that Hamas 
is a terrorist organization and whatever humanitarian aid we 
provide to those suffering under its rule in Gaza must be 
carefully tracked to ensure that it is not diverted.
    Palestinian Authority must take responsibility for its 
people and must ensure the greatest transparency and 
accountability for any U.S. funding if it is to continue.
    The bulk of the NEA budget, of course, will go to 
supporting the crisis in Syria and Iraq. The United States has 
led a coalition of over 60 nations including five Arab states 
in the fight against ISIS.
    There have been over 3,000 coalition air strikes that have 
devastated much of ISIS' leadership but there are many of us 
here who are still unclear as to our long-term strategy for 
dealing with ISIS in Iraq and Syria and I hope that we continue 
to see an inclusive governing process in Iraq.
    Part of our strategy also addresses the use of religious 
extremism as an recruitment tool and I would like to know what 
the United States' role in that process looks like.
    But wrap up by reminding everyone that Assad is still 
Assad. He is still the biggest threat to the people of Syria.
    We have to support a political solution that ends his 
brutality and, Ambassador Patterson, I hope you will clarify 
for everyone the Secretary's recent comments on Assad's role in 
that process.
    Finally, looming over the region, of course, is Iran's role 
and influence from its meddling in Yemen and the Gulf States to 
its support for Hezbollah and Assad in Syria to its influence 
in Iraq and to its nuclear weapons ambitions and threats 
against our regional allies.
    This regime has made the calculated decision to disrupt the 
stability of our partners. And regardless of the outcome of the 
nuclear negotiations, we cannot ignore the myriad of dangerous 
activities that Iran promotes.
    Increased cooperation with our Gulf partners can help 
counter Iran's actions and in addition we must highlight the 
regime's repression and human rights abuses and I hope we will 
do our best to continue to support the Iranian people.
    Chairman, I don't think there is any doubt this is the most 
challenging region to work in but the security of this country 
and our allies is too important for the United States to 
disengage.
    I support a robust international affairs budget that allows 
us to respond to complex challenges and advance our interests, 
and I thank the witnesses for being here today and look forward 
to their testimony.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Deutch.
    I will now turn to the other members for an opening 
statement that they wish to make.
    Mr. Clawson of Florida.
    Mr. Clawson. Thank you for coming today, both of you.
    A couple things if you will keep in mind in your comments 
today that you could help me with as I think about these things 
and study these things.
    From the view of the State Department, it just feels 
generally speaking like do we do more harm than good in this 
region, and it feels like we need a regional solution that 
involves other people but that our interventions have been far 
from perfect and we spill a lot of blood and treasure in the 
region and I am unsure of what we get back for that sometimes. 
And that is kind of a nonpartisan comment and, you know, will 
we get it right this time.
    I have deep respect for USAID and whenever I run into them 
overseas, Ambassador, I just think they are doing a great job 
and under very difficult circumstances.
    The question there that I have that you could keep in mind 
as we talk today should we be involved in these sorts of 
efforts where there is a war going on or where we have hostile 
regimes?
    Because it seems like the aid ends up in the wrong hands. 
So I don't question the mission. I am always worried about 
accountability.
    But I worry that if we are doing these sorts of activities 
in Cuba or in the Middle East where we have people hostile to 
our allies in Israel, are we doing the right thing by focusing 
our efforts in those sorts of areas.
    With that, I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Clawson.
    Mr. Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Madam Chairman and Ranking Member 
Deutch, for calling this hearing and thank you to our two 
distinguished witnesses for being here today to discuss the 
important topic of U.S. priorities in the Middle East for the 
Fiscal Year 2016.
    As we all know, the current situation in the Middle East is 
incredibly turbulent and constantly changing and the United 
States must have the funding and the flexibility to respond to 
existing threats and crises as well as future issues that may 
come up in the region.
    The request of the administration of $7 billion for the 
region is an almost 9 percent increase over the Fiscal Year 
2015 enacted levels, and while this increase certainly seems 
justified given the vast security and humanitarian needs in the 
region, I look forward to hearing from our witnesses on the 
United States--how the United States can ensure that our 
resources are being used effectively to advance American 
strategic priorities.
    I am particularly interested in asking some questions that 
relate to the Syrian refugees as well as our efforts to, again, 
invest in training the Syrian--so-called Syrian opposition.
    I know most of that goes through the Department of Defense 
but I hope the witnesses will address those two issues and I 
look forward to your testimony, and I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Cicilline.
    We are pleased to welcome our two witnesses, a good friend 
of our subcommittee, Ambassador Anne Patterson, who is 
Assistant Secretary of State for Near Eastern Affairs. 
Ambassador Patterson has served as the U.S. Ambassador in El 
Salvador, in Colombia, Pakistan and Egypt.
    She has also been Assistant Secretary of State for 
International Narcotics and Law Enforcement Affairs, Deputy 
Permanent Representative to the U.N. and State Department's 
Deputy Inspector General. Welcome back.
    Then we are also so pleased to welcome Assistant 
Administrator Paige Alexander of the Bureau of the Middle East 
at USAID.
    Previously, Ms. Alexander has served as Assistant 
Administrator of the Bureau for Europe and Eurasia as well as 
an associate director for Project Liberty at Harvard 
University's John F. Kennedy School of Government.
    She has also served on the board of the Basic Education 
Coalition and the Project on Middle East Democracy.
    Welcome, ladies, and we will start with you, Madam 
Ambassador.

    STATEMENT OF THE HONORABLE ANNE W. PATTERSON, ASSISTANT 
 SECRETARY, BUREAU OF NEAR EASTERN AFFAIRS, U.S. DEPARTMENT OF 
                             STATE

    Ambassador Patterson. Thank you, Madam Chairman and Ranking 
Member Deutch, members of the subcommittee. Thank you for 
inviting us to appear today.
    With your permission, I will submit my full testimony for 
the record.
    Ms. Ros-Lehtinen. Without objection.
    Ambassador Patterson. I will focus on a few of our budget 
highlights and I look forward to answering your questions.
    The Middle East and North Africa is experiencing a 
difficult period of instability with serious consequences for 
both our national and regional security.
    It has shaken the foundations of these societies, many of 
whom are our long-term partners where rapidly growing youthful 
populations are pressing for change.
    Although the region's challenges take many--will take many 
years to resolve, American engagement and leadership is 
critical to reaching a new equilibrium that will protect our 
vital interest and spur economic progress.
    The President's Fiscal Year 2016 request seeks $7.3 billion 
in U.S. foreign assistance to the Middle East and North Africa.
    This figure is an overall increase of 5 percent, or $351 
million, from Fiscal Year 2014 levels and will support U.S. 
national security interests, enable us to pursue our vital 
interests and allow us to remain an engaged and productive 
partner to the region's people and governments.
    The Islamic State of Iraq and the Levant has become the 
most pressing threat to U.S. interests and our allies in the 
region. As the President has clearly stated, we are committed 
to degrading and ultimately defeating ISIL.
    This request includes a total of $1.8 billion to counter 
ISIL and to support the moderate Syrian opposition and the 
security and stability of Syria's neighbors. Bashir al-Assad, 
whose brutality toward the Syrian people catalyzed a civil war, 
has lost legitimacy in the eyes of Syrians and the 
international community.
    We are requesting $255 million for programs to enhance the 
moderate Syrian opposition's capacity to provide governance and 
essential services to the Syrian people and to establish the 
conditions to advance a political solution.
    We will provide needed nonlethal support to vetted armed 
units to complement the DoD Train and Equip program. We are 
also requesting $355 million for Iraq to help the Iraqi 
security forces respond to the threat ISIL poses and over time 
establish security through unified national force and provide 
public services for all its citizens.
    We are also seeking funding for our continued engagement in 
the search for a just and lasting two-state peace agreement in 
the Middle East and our deep commitment to Israel's security.
    We continue to believe that only a two-state solution that 
results in a secure Israel alongside a sovereign and 
independent Palestinian state can bring lasting peace and 
stability to both peoples.
    To that end, we are requesting $3.1 billion for Israel as 
part of our 10-year $30 billion memorandum of understanding.
    We are requesting $442 million to support the Palestinian 
people and remain engaged with the Palestinian Authority in 
spite of its unconstructive agenda at the International 
Criminal Court.
    The resources enhance security for Israelis, Palestinians 
and others in the region and help pay many Palestinian 
Authority debts to Israel.
    In Egypt, the Fiscal Year 2016 budget request of $1.5 
billion supports our longstanding partnership with Egypt and 
maintains our commitment to Egypt's security.
    This request includes $1.3 billion in FMF, consistent with 
prior years, and will support sustainment of U.S. weapons 
systems previously provided to Egypt, maintenance of the Egypt-
Israel peace treaty and protection of the Suez Canal.
    We are focusing our $150 million economic support programs 
on fostering private sector-led growth and we will continue to 
press Egypt to improve its human rights situation while 
promoting religious tolerance, especially for the Coptic 
Christian community.
    Today's terrorist attacks at the Bardo Museum complex 
killed at least 19 people, including 17 foreign tourists, 
according to Prime Minister Essid. We condemn this attack and 
have expressed our condolences to the Tunisian people, the 
victims and their family and friends.
    This act of violence, while deeply troubling, in no way 
diminishes the achievements of the Tunisian people in 
establishing their new democracy or our confidence in Tunisia's 
future.
    This horrific attack underlies the critical need to support 
Tunisia as addressed in the Fiscal Year 2016 budget. Our Fiscal 
Year 2016 request of $134 million represents a nearly $77 
million increase above our Fiscal Year 2014 allocation and 
demonstrates our commitments to Tunisia's nascent democracy.
    In particular, the $62.5 million in FMF requested will 
increase Tunisia's counterterrorism capacities by building its 
intelligence surveillance, border security and reconnaissance 
capacities and maintaining aging U.S. equipment crucial to the 
fight against terrorism.
    The combined $14 million in INCLE and NADR supports 
training, the provision of equipment and technical assistance 
to the Tunisian minister of interior.
    Madam Chairman, Ranking Member Deutch, it is important to 
remember that behind all these budgetary numbers lay programs 
that provide assistance to millions of people who are seeking 
jobs and economic opportunities, education for their children 
and a chance to live in peace.
    Since the start of the Syrian crisis, the United States has 
provided more than $3 billion in humanitarian assistance to 
assist refugees from Syria, including significant funding for 
humanitarian activities, helping countries like Lebanon and 
Jordan cope with the effects of the crisis.
    This request will advance the diplomatic and security 
interests of the United States while enabling us to help the 
people of the Middle East and North Africa during a time when 
American leadership in the region remains desperately needed.
    Thank you very much.
    [The prepared statement of Ambassador Patterson follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you, Ambassador.
    Ms. Alexander.

     STATEMENT OF THE HONORABLE PAIGE ALEXANDER, ASSISTANT 
  ADMINISTRATOR, BUREAU FOR THE MIDDLE EAST, U.S. AGENCY FOR 
                   INTERNATIONAL DEVELOPMENT

    Ms. Alexander. Thank you, Chairman Ros-Lehtinen, Ranking 
Member Deutch and members of the subcommittee. Thank you for 
inviting me here today to discuss the Fiscal Year 2016 budget 
for the United States Agency for International Development and 
our efforts to respond to the development needs in the Middle 
East and North Africa.
    We face unprecedented challenges in this region. The 
economic frustrations that lack inclusion that brought people 
to the streets 4 years ago has not engaged and it remains a 
daily reality.
    Unemployment among the young people is the highest in the 
world. The region faces substantial water challenges and 
instability in key countries further complicates our work. The 
administration's 2016 budget request is focused on addressing 
these needs, providing assistance that is critical to advance 
America's strategic, economic and security interests.
    USAID is working with local partners in private sector 
growth and inclusive economic opportunity, education, civil 
society and responsive government. We are investing in programs 
that will help individuals in communities build resilient 
stable societies.
    We are constantly innovating and thinking creatively about 
how to best operate in high-threat environments while 
leveraging our limited dollars to address development needs. We 
work not only with governments but also with grass root level 
folks, changing the lives of individuals and transforming 
communities.
    I just returned from a trip to the region and when I was in 
Egypt I was able to see how this works together with government 
and society. I visited a USAID program that helped teachers 
create innovative classrooms for an early grade reading 
program.
    USAID actually did the first 166 schools as a pilot and the 
Government of Egypt picked up the other 16,000 schools 
throughout the country. This is how we work collectively 
together.
    My statement for the record includes more details of USAID 
priorities and challenges in the regions and I would like to 
briefly mention some of them here.
    The Syrian crisis is the largest and most complex 
humanitarian emergency of our time. The United States, with the 
support of Congress, has been the largest single international 
donor, providing more than $3 billion to date.
    In addition to humanitarian assistance, the 16 requests 
will support programs in Syria intended to help the moderate 
opposition maintain basic governance and services to provide 
alternates to the regime and the violent extremist groups.
    The emergence of ISIL has had an unprecedented impact on 
our region. The majority of Syrian refugees have been absorbed 
into local communities in Jordan and Lebanon, doubling and in 
some cases tripling the populations of towns that were already 
hard pressed to provide these essential services.
    The United States provides critical support to these host 
communities by building schools, expanding health facilities 
and increasing access to water. In Iraq, we anticipate enormous 
assistance needs in liberated areas from ISIL to help the 
displaced return home and communities recover.
    USAID's plans for Fiscal Year 2016 include highly targeted 
and focused assistance to help Iraq generate revenue and 
provide services with limited U.S. taxpayer resources.
    In Libya and Yemen, U.S.-funded programs continue to 
operate with local staff and careful third party monitoring, 
remote monitoring at this point while our American staff manage 
the programs from outside those countries due to the security 
concerns.
    We remain committed to the pursuit of a negotiated two-
state solution for the Israeli-Palestinian conflict. To that 
end, the Fiscal Year 2016 budget will continue to support peace 
efforts by funding programs that benefit the Palestinian people 
including in education, health, humanitarian assistance, 
private enterprise and infrastructure.
    On my recent trip, I was introduced to Muhummad, an olive 
oil farmer who tripled his yield through farming practices 
learned with USAID's Olive Without Borders.
    This project, with our support, more than 1,500 Israeli and 
Palestinian olive farmers and distributors came together to 
share farming methods and promote understanding.
    With our help, the Palestinian and Israeli officials also 
agreed to allow Israelis to purchase Palestinian olive oil for 
the first time in 10 years, resulting in $20 million in new 
revenues for the Palestinian farmers.
    In Fiscal Year 2016, we intend to do more to support 
farmers and entrepreneurs like Muhummad because a strong 
Palestinian economy is good for everyone and U.S. assistance 
plays a critical role promoting the stability and prosperity, 
not just for the Palestinians but for Israel.
    Egypt continues to be a key strategic partner in the 
region. In Fiscal Year 2016, the United States will continue to 
support initiatives that help Egypt and the Egyptian people.
    We have intensified our commitment to help the Egyptian 
economy become more competitive and more inclusive. Our 
investments will continue it improve the basic quality of basic 
education and higher education as well as addressed issues such 
as fundamental freedoms, which are essential to Egypt's long-
term political and economic development.
    Elsewhere in North Africa, USAID supports Tunisian people 
as they lay a foundation for a future of economic prosperity 
and democratic governance.
    As the chairwoman said and you all have mentioned, we will 
continue to support Tunisia in their drive to make this 
progress even in light of today's events.
    In Morocco, we continue to promote economic growth, improve 
educational opportunities and strengthen the effectiveness of 
civil society.
    The President's request responds to development needs and 
challenges in the Middle East and North Africa and USAID 
programs remain essential components of the U.S. foreign policy 
interest in security and stability.
    Thank you for the opportunity to appear before you today 
and I look forward to answering your questions.
    [The prepared statement of Ms. Alexander follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                   ----------                              

    Ms. Ros-Lehtinen. Thank you very much, both of you, for 
excellent testimony and I will recognize myself to start the 
questions.
    Assistant Secretary--Ambassador Patterson, as I mentioned 
earlier in my remarks, Mr. Connolly and I recently received a 
report from GAO regarding our assistance program in Egypt.
    The report found that we have about $460 million in 
unobligated funds for Egypt from previous years, yet this 
budget request seeks an additional $150 million for Egypt. What 
is the status of the nearly $\1/2\ billion in unobligated 
funds?
    Is it going to be reprogrammed for something else? Why are 
we seeking an additional $150 million when we already have this 
$460 million unused? And my office also learned that the 
decrease from $200 million in the previous request for Egypt's 
ESF to $150 million this year reflected the administration's 
policy decisions.
    So what is the rationale or the policy decision behind this 
seemingly random $50 million cut?
    Ambassador Patterson. Thank you, Madam Chairman.
    We have certainly over the past several years had 
difficulty disbursing in Egypt because of the huge political 
turmoil, the issue with NGOs. The--I think the last year I were 
there there was something like six finance ministers.
    So the environment has been very unsettled for a number of 
years. We have tried--we have just signed six agreements. We 
are trying to move ahead with our higher education initiative, 
particularly focusing on economic growth, and we think we can 
liquidate that pipeline in a speedy manner.
    One reason we did drop the request though was because we 
had a substantial backlog. So we wanted to allocate those 
resources to another area.
    But we are doing everything we can now to liquidate that 
pipeline and put in place a number of promising new programs, 
particularly reaching directly to the Egyptian people.
    Ms. Ros-Lehtinen. And will use those unobligated funds for 
other programs?
    Ambassador Patterson. Yes. We have signed up a lot of 
programs I think in the last 3 months, six new major programs 
including a higher education initiative.
    For instance, we have a girl's school that focuses on 
science and math and--but our main focus is going to be on 
economic growth and trying to reduce the unemployment and to 
get the economy growing in Egypt because it is 90 million 
people in the center of the Arab world.
    Ms. Ros-Lehtinen. And on my question about the $200 million 
and then $150 million, and it was said it reflected the 
administration's policy decisions, what policy decisions guided 
that cut?
    Ambassador Patterson. The main policy decision was, as you 
say, we had a lot of unliquidated pipeline. So we decided to 
reallocate that money or to at least assign that money to other 
areas.
    Ms. Ros-Lehtinen. Okay. Again, staying briefly with GAO 
report, this one touches on another GAO report that I 
commissioned on security assistance to Lebanon. But it was 
referenced in the Egypt report.
    In 2013, GAO reported that bureau evaluation plans for 
security assistance were due in May 2012 yet none of them were 
completed at the time and, remarkably, GAO reports that the 
State evaluation of Lebanon is expected to be the basis for 
informing future evaluations of security assistance to Egypt 
and other countries.
    Where do we stand with these evaluations? How is it 
possible that we still have never conducted such reviews?
    Ambassador Patterson. Yes, Madam Chairman.
    The GAO had an entirely valid point about that and we are 
certainly on the hook to conduct an assessment of Egypt's 
security programs--security assistance program which is, of 
course, very sizeable and very complex.
    And we have been working with our colleagues in the Bureau 
of Political Military Affairs to get that going. They are 
trying to develop a template that they can use worldwide for 
these security assistance programs. But I hope to report back 
to you and members of your staff shortly about how this is 
proceeding.
    That said, Madam Chairman, we have worked closely with the 
Egyptian military to encourage them to modernize their military 
and to use our assistance to meet more current threats such as 
counter terrorism and border security. As you noted, they are 
facing serious problems both in the Sinai and on their western 
border.
    Ms. Ros-Lehtinen. Well, we look forward to receiving the 
progress report on those evaluations.
    Regarding the budget request for Iraq, how much of this 
request for Iraq--$250 million in OCO FMF--is going to arming 
and helping the Kurds? Where are we in the process of sending 
military arms to the Kurds and to Baghdad?
    Ambassador Patterson. Madam Chairman, we had a--we have had 
a very extensive program to arm the Kurds and we can provide 
details to this committee.
    DoD had a task force set up to provide small arms, medium-
sized arms to the Kurds and to rush those in during the first 
stages of the campaign against ISIL.
    I think at issue here is the heavy weaponry and our 
analysis, I think, as members of this committee know that it 
would not be legal to provide those directly to the Kurds and I 
understand members of the committee are considering legislation 
to redress that.
    We have very close cooperation with the Kurds. We have a 
joint intelligence center. We have a large consulate up there. 
We work very, very closely with them on military operations.
    Ms. Ros-Lehtinen. We appreciate that. Keeping with Iraq and 
Syria and the administration's humanitarian request of $1.6 
billion, Congressman Deutch and I have requested a new GAO 
report that evaluates our humanitarian assistance on the Syrian 
crisis.
    Our concern is to ensure that our assistance is getting to 
where it is designed to go yet most of it goes to U.N. 
agencies. What kind of oversight do we have over this 
considerable amount of U.S. taxpayer money going through the 
U.N.?
    Ambassador Patterson. I would--I would go back to my 
assignment in New York about this. We have worked hard over the 
years to put in place an inspector general, accountants, 
auditors, oversight committees.
    The fifth committee in New York that is--that has very 
robust American representation oversees these agencies or the 
agency directly, and I think if we could provide you more 
detail you would be satisfied that there is an oversight 
program with the U.N. agencies that basically pretty much 
mirrors ours.
    Ms. Ros-Lehtinen. I look forward to getting more 
information on our oversight of this humanitarian aid being 
funneled through the U.N.
    On Monday, Secretary Kerry actually stated that Assad 
should be included in the negotiations to reach a political 
solution in Syria, which unsurprisingly was immediately 
dismissed by Assad, and it is absolutely astonishing to think 
that the administration believes that Assad could or should be 
part of the negotiations, though it is not surprising 
considering the President's penchant for opening communications 
with other rogue regimes like Cuba and Iran.
    Do you believe that Assad must go or should he be part of 
the negotiations? Where are we with Assad this week?
    Ambassador Patterson. Madam Chairman, let me try and 
clarify that. Let me state unequivocally that our policy toward 
Assad had not changed. He must leave. He is a brutal dictator.
    He is responsible for the deaths of 250,000 people as well 
as enormous displacement. What the Secretary meant with his 
statement and, believe me, the Secretary of State did not mean 
that he was going to sit down at the same table with Bashar al-
Assad--that any negotiation to remove him from the scene, and 
we all hope for a political negotiation, would have to involve 
some people close to Assad who could speak for him to get him 
to move out.
    And that is basically what it boils down to. But I assure 
you our policy vis-a-vis Assad has not changed.
    Ms. Ros-Lehtinen. And, lastly, it is my opinion that Abu 
Mazen's initiative at the U.N. and the ICC have triggered the 
law to cut off funding for the PA.
    I know we may have a disagreement. There is an ongoing 
review. But given the recent statements by the lead Palestinian 
negotiator who said that a victory for Prime Minister Netanyahu 
would give them no other choice than to continue pressing for 
action at the ICC, does this change that review?
    Will we cut off funding for the PA, close the PLO office in 
DC and what is the status of that review?
    Ambassador Patterson. I think my colleagues have told you 
we are looking at all the assistance to the Palestinian 
Authority. We know that the situation has changed and there may 
be a reallocation among accounts.
    But you hit the nail on the head. I do think we have a 
disagreement about this--whether the law has in fact been 
triggered--and let me assure you that the Secretary and many 
other American officials but particularly Secretary Kerry are 
in constant contact with Abu Mazen and senior members of the 
Palestinian Authority to encourage them to take the right path. 
It is a, believe me, an ongoing dialogue.
    Ms. Ros-Lehtinen. Thank you very much, Ambassador 
Patterson.
    Did not mean to ignore you, Ms. Alexander. We just have so 
many questions for the Ambassador.
    Ranking Member Ted Deutch.
    Mr. Deutch. Thank you, Madam Chairman. Let me just pick up 
where you left off on that last point. Ambassador Patterson, I 
appreciate the statements and the encouragement that President 
Abbas take the right path but can you tell us when the review 
might be complete, when we might know with some certainty 
whether that law has been triggered and if not so that we can 
make determinations about how best to proceed?
    Ambassador Patterson. Well, Mr. Deutch, we don't think the 
law will be triggered until there is a formal investigation 
underway. But that quite apart--that is quite apart from our 
internal evaluation of essentially the aid package, and I can't 
give you a date but I will give you my assurance that I hope it 
will be done very shortly.
    And I will go back and check on that and we will give you a 
call and try and pin that down because I know that is a 
interest of great concern for this committee.
    Mr. Deutch. We would appreciate that. Let me--let me go 
back to Egypt for a second and, again, just picking up on the 
exchange that you had with the chairman.
    So the Secretary was quoted this week as saying we should 
expect a decision soon on certification for aid to Egypt, and 
as I said earlier I support our partnership with Egypt. I think 
it is very important.
    It is critical. But as we look at the relationship and we 
balance our very real concerns with civil society and human 
rights with our very important security relationship, could you 
just continue again where you started and what does that 
actually look like going forward? How do you anticipate this 
playing out over the coming weeks and months?
    Ambassador Patterson. Well, there--frankly, as you well 
know, we have essentially conflicting objectives in Egypt and 
it is very important to promote our security relationship and, 
frankly, Egypt's security relationship with Israel, which has 
never been better, and is even more important now than in the 
past because of the upheavals in the Sinai, which threatens 
both Egypt and Israel.
    So the security relationship is paramount. Egypt has to--
Egypt's armed forces have to evolve to meet new threats. They 
have quite legitimate concerns on the Western border now with 
the growth of ISIL and the uncertainty in Libya.
    But I think all of us are concerned, as you are, about the 
crackdown on civil society and the crackdown on secular 
activists and the large number of people in Egyptian jails who 
probably shouldn't be there or at least should be there under 
some semblance of due process.
    So we are just going to have to balance these objectives 
going forward and we are, frankly, doing the best we can. We 
pressed--the Secretary was in Egypt last week.
    He met with President el-Sisi. I know from previous 
conversations that human rights and the future of civil society 
is always high on his agenda.
    But he is also very mindful of the role that Egypt plays 
vis-a-vis Israel and Gaza and now Libya and the threats that 
they are facing.
    Mr. Deutch. I just--I agree with you completely and I just 
want to echo what you have--how you laid that out. It is not an 
either-or scenario.
    There is--we can continue to address--work to address our 
concerns about civil society while also providing the necessary 
and critical security support that Egypt desperately needs at 
this time because of their role--because of their relationship 
with us, because of their role in the region, because of the 
role they are playing with Israel. It is not either-or.
    It is an important message from you and from the 
administration. Because that is the case, I think a lot of us 
would like to see it--see us move forward on both paths 
quickly. That is my message to you.
    And, finally, on Iran, how does the--how does the budget 
allow the United States to strengthen relationships with our 
regional partners to counter Iran's dangerous and destabilizing 
influence in the broader region?
    Ambassador Patterson. Well, I think a key to that is our 
relationship with the Gulf countries, frankly, who don't need 
foreign assistance, and Secretary Kerry has spent a good deal 
of time reassuring our Gulf partners.
    He was just in Riyadh 10 days ago. He is planning to have a 
meeting of GCC countries early in April, reassuring them of our 
commitment to their security, not the least of which is the 
presence of 35,000 troops in the region.
    But, certainly, as far as the request goes to improve the 
capacity of Lebanon's security forces is also paramount because 
it is a truly national institution that prevents, shall we say, 
the rise of other armed groups from playing a more prominent 
role in Lebanon.
    And then, of course, the request for Jordan is very 
important throughout the region.
    Mr. Deutch. Thank you. I yield back.
    Ms. Ros-Lehtinen. Thank you.
    Mr. DeSantis of Florida.
    Mr. DeSantis. Thank you. Has--Ambassador Patterson, has the 
administration spoken with Netanyahu to congratulate him on the 
Likud Party's victory?
    Ambassador Patterson. Yes, sir. Secretary Kerry--I saw an 
email a couple hours ago--called him to congratulate him 
sometime today.
    Mr. DeSantis. Has the White House, to your knowledge?
    Ambassador Patterson. I don't know.
    Mr. DeSantis. I appreciate both of your statements and 
testimony. This--I know the two-state solution has been 
something that has been discussed in diplomatic circles for 
decades.
    But given the election results, given the security posture 
that Israel faces right now, do you honestly think it is 
realistic that you would have a Palestinian state on the 
horizon, given all the terrorism that we are seeing not only 
from ISIS but from Shi'ite groups like Hezbollah, to have--the 
experience in Gaza was when the Israelis pulled out you had 
Hamas take over.
    So why would they want to run the risk right now of having 
that same history replicate itself on the West Bank?
    Ambassador Patterson. Well, this has been longstanding U.S. 
policy to--because it is the only----
    Mr. DeSantis. No, I understand that. But I am saying as 
right now, given where we are, is that really a realistic----
    Ambassador Patterson. Yes, I think so because critical to 
this issue, and Secretary Kerry has spent a huge amount of time 
on this, will be robust security guarantees for Israel.
    And my understanding is that that process and that 
discussion and that analysis was much more advanced in this 
round of discussion than in any previous round. Another 
element----
    Mr. DeSantis. Well, let me just--I appreciate that. Because 
I think it gets to kind of the broader policy. So as the 
chairwoman pointed out, you had the Hamas-Fatah unity 
government and many of us, including me, think that the law 
called for a suspension of aid as a result.
    And the administration rationalized it, said well, they are 
not--there is no undue influence--these are really just 
technocrats with Hamas. One, if there is any unity, the money 
is fungible, so that frees up more money for Hamas.
    But whatever. So there was no suspension of aid. Now you 
have the ICC gamut. Abbas has asked for an investigation. He 
signed a letter and the administration's position is well, they 
haven't initiated an investigation so we don't think the law is 
triggered.
    And we know that there have been threats to do other things 
unilaterally to the international community to try to attain 
Palestinian statehood.
    So I guess my question is, if you are always going to read 
those things in Abbas' favor and in the Palestinian Authority's 
favor, aren't you really just emboldening him to push the 
envelope with his unilateral actions?
    If he doesn't think there are going to be consequences, why 
not try to do what he is doing?
    Ambassador Patterson. Congressman, I guess--I guess I would 
say in response to that that it strikes me as important for 
Israel's security too because at this point, for instance, the 
Palestinian civil servants are at 60 percent of their salary 
level.
    So if you cut off funding to the Palestinian Authority and 
you have a considerable degree of disruption and civil unrest 
on the West Bank, Israel is going to----
    Mr. DeSantis. No, I understand that. But at the same time, 
with respect to Abbas, I think we have sent him a message that 
he is going to be able to push the envelope.
    Let me ask you about UNWRA. It was very distressing to see 
all these reports of Hamas rockets in these UNRRA schools where 
they are firing into the Israeli population.
    And we have sent money to UNRRA and you would ask 
questions--they would say oh, well, you know, we are not 
working with Hamas. Really? You are not working with Hamas? How 
did those rockets get in those schools?
    What is the administration's position with respect to UNRRA 
and how those UNRRA schools were used to launch rockets against 
the Israelis?
    Ambassador Patterson. We talked, at least I talked as did 
many others, to the head of UNWRA just 2 days ago and they are 
doing and have done an exhaustive investigation of those 
claims, and we will be happy to provide it to you.
    Mr. DeSantis. What is the conclusion?
    Ambassador Patterson. The conclusion is a lot of it was 
false. There were other--there were--yes, there were things 
stored there but it is important that we get all the facts and 
provide them to you.
    Mr. DeSantis. Yes, we would definitely like to see that. 
With respect to Egypt, does the administration consider--I know 
you said there are competing values at stake, but does the 
administration consider President al-Sisi to be an ally in the 
war against terrorism?
    Ambassador Patterson. Certainly. I mean, he is--I know 
President el-Sisi very well. Yes.
    Mr. DeSantis. Great.
    Ambassador Patterson. That is the short answer.
    Mr. DeSantis. Because I appreciate the problems with civil 
society, and I agree with you on that. But it seems to me the 
Muslim Brotherhood you had--it was negative in both ways 
because they would have cracked down on civil society.
    They were doing that, and they would not have been a 
reliable ally in the broader fight against Islamic extremism. 
And so I think we need to work with the military there, and I 
appreciate those comments.
    My final question is, if you look at over the course of the 
Obama administration Iran has had a pretty good run of it. They 
have really expanded their influence throughout the Middle 
East.
    They are in de facto control of Iraq. They have a client 
now controlling Yemen. Clearly, they have been propping up the 
Assad regime--very big patrons of Gaza.
    Are we concerned--is the State Department concerned about 
the expansion of Iranian influence throughout the Middle East 
and, if so, what are you going to do about it?
    Ambassador Patterson. Well, certainly, we are concerned 
about the expansion of Iranian influence and we are certainly 
concerned about what is taking place in Lebanon and Yemen and 
other countries.
    And the broader concern, if I might say, Congressman, is 
sectarian conflict is at the highest level that any of us 
recall with years of experience in this region in the Middle 
East.
    The Shi'a-Sunni conflicts are very deep and very extreme. 
And let me be clear that we are doing everything we can through 
a variety of means, which we can perhaps talk about in another 
setting, to arrest some of this confrontation.
    Ms. Ros-Lehtinen. Thank you very much, Mr. DeSantis.
    Mr. Cicilline.
    Mr. Cicilline. Thank you, Madam Chair. Thank you to the 
witnesses for the excellent presentation.
    I just returned with some colleagues from the Middle East 
and it reminded me that this is a very complicated region of 
the world and there are no easy solutions and I really 
appreciate the testimony, Ambassador, that you gave with 
respect to our competing interests because it seems to me that 
is the case in virtually every part of this region and striking 
the right balance is really an important objective.
    I don't think there are competing values, as was just 
suggested. Actually, hopefully, we have a set of American 
values that we are promoting and the interests are what are 
competing in some of these contexts.
    I would like to focus for a moment, again, on Egypt because 
I know that that is a place where their kind of competing 
interests are really obvious. But I am wondering if you would 
just speak to whether or not we are seeing--I recognize the 
security interests are deep and longstanding and continue to be 
strong.
    But are you seeing any progress on the civil society--on 
the release of the detained individuals, on efforts to free the 
NGO workers, on implementing laws that really advance 
democracy, taking steps that are consistent with protecting or 
advancing the rights of women and religious minorities?
    Is there any progress that we are seeing and what is the 
United States doing to really insist on some progress in these 
areas?
    Ambassador Patterson. First of all, let me say that the 
request contains a lot of money--resources that could support 
these projects. But let me sort of--I mean, I think what I 
would say in Egypt we are seeing modest progress.
    For instance, on--I think--I think there isn't a serious 
problem and I think the Coptic Christian community is, frankly, 
much happier under President al-Sisi than they were under the 
previous government and I think if they were here they would 
say that they enjoy--he came to Christmas Mass, which was a 
first in Egypt's history--I think they would say they are 
enjoying a higher degree of freedom than they have in years.
    On NGO laws, I will admit there is not much progress on 
that. I would be the first to say that, and we will press and 
have pressed for a new NGO law that would provide for greater 
freedoms for both local and foreign NGOs.
    And in terms of the electoral progress, they did set a date 
for elections and the courts have just overturned it. So we 
will be ready with technical assistance.
    They have been very willing to take our technical 
assistance for elections. We will be willing to provide that as 
soon as they set another election date. But they need to move 
on with the democratic process and elect a Parliament.
    Mr. Cicilline. Thank you.
    And Ms. Alexander, I want to--I just returned as part of 
that trip to the Zaatari refugee camp in Jordan right on the 
Syrian border and the crisis, as you know, facing the 
Jordanians in particular but the Syrian refugee crisis 
continues to be really extraordinary, and the United States, I 
know, has been the lead donor.
    But the demand and the needs are enormous. And I am just 
wondering are we--what are we doing to persuade our partners in 
the region, particularly the Saudis, the Emiratis, the UAE, to 
really undertake a greater responsibility?
    I mean, the Jordanians--the Hashemite Kingdom--has taken on 
an incredible responsibility and don't even really complain 
about it. They just sort of see it as some--their 
responsibility.
    But it is clear to me that we are doing our part, the 
Jordanians are doing their part but are we doing things to 
press others in the region to undertake some more of this 
humanitarian work?
    Ms. Alexander. Thank you, Congressman. In fact, we are. I 
am glad you were able to see the camp and I hope that you were 
able to see the assistance the U.S. Government has been giving 
up there.
    There is a donors conference in Kuwait at the end of the 
month and one of the main pitches is to make sure we speak with 
the Gulf States and other regional players to recognize that 
this refugee--the refugee flows are so destabilizing to all of 
the neighbors.
    And without being able to provide essential services and 
the basic humanitarian needs that are there, we are going to 
face a larger humanitarian crisis than just the refugee flows 
we are seeing now.
    So that is something that we are focused on. USAID has bene 
out and doing a tin-cup exercise with a lot of these other 
countries to make sure that they come to the donors conference 
prepared to recognize the incredible needs that are there.
    Mr. Cicilline. And it is an important moment to recognize 
the incredible workers from the respective agencies, 
particularly USAID, who are doing extraordinary work and from 
the U.N. and the other agencies.
    One final question I want to ask about is Section 7008. 
There is a provision in the appendix to the budget request, 
which--where the administration is seeking a change in U.S. 
law, a law that has been in place for about three decades which 
requires the suspension of U.S. aid in the event of a coup 
d'etat against a democratically-elected government.
    As you know, this section has been applied many times in 
places like Fiji and Mali and Thailand and Madagascar and 
provided an incentive for power to return swiftly to the 
democratically-elected governments.
    And so I would like to hear a little bit about what is the 
justification for proposing this national interest waiver and 
what kind of signal might that send and should we be concerned 
about sending to governments that have come to power by 
military coup and foreign ministries globally, especially in 
this moment?
    Ambassador Patterson. I didn't know, sir----
    Mr. Cicilline. Yes. Ambassador Patterson. I am sorry.
    Ambassador Patterson. I didn't know we were requesting a 
waiver. I mean, generally speaking we want--we would seek the 
most flexibility we have in the interpretation of the law, and 
there was a recent issue in our part of the world in which we 
had, you know, shall I say, some difficulty in making that 
determination. But I can't answer that. We will get back to 
you.
    Mr. Cicilline. Thank you very much.
    Thank you, Madam Chairman. I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Cicilline.
    Thank you, ladies, for excellent testimony. We hope that 
President Obama will be calling Prime Minister Netanyahu very 
soon.
    Thank you very much, and with that the subcommittees are 
adjourned. Thank you.

    [Whereupon, at 3:53 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
                                 
                                 
</pre></body></html>
